                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL



                     More Action Is Needed to
                     Protect Water Resources
                     From Unmonitored
                     Hazardous Chemicals
                     Report No. 14-P-0363              September 29, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                           Tapati Bhattacharyya
                                               Steve Hanna
                                               Tina Lovingood
                                               Roopa Mulchandani
                                               Naomi Rowden
                                               Brooke Shull
                                               Olga Stein




Abbreviations

CFR            Code of Federal Regulations
CWA            Clean Water Act
DMR            Discharge Monitoring Report
EPA            U.S. Environmental Protection Agency
NPDES          National Pollutant Discharge Elimination System
OIG            Office of Inspector General
POTW           Publicly Owned Treatment Works
RCRA           Resource Conservation and Recovery Act
TRI            Toxics Release Inventory
WET            Whole Effluent Toxicity


Cover photo: Stickney Water Reclamation Plant, Cicero, Illinois. (EPA OIG photo)


 Are you aware of fraud, waste or abuse in an            EPA, Office of Inspector General
 EPA program?                                            1200 Pennsylvania Avenue, NW (2410T)
                                                         Washington, DC 20460
 EPA Inspector General Hotline                           (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                    www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                     Subscribe to our Email Updates
                                                         Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.       Send us your Report Suggestions
                         U.S. Environmental Protection Agency                                               14-P-0363
                                                                                                    September 29, 2014
                         Office of Inspector General


                         At a Glance
Why We Did This Review                More Action Is Needed to Protect Water Resources
We evaluated the effectiveness of     From Unmonitored Hazardous Chemicals
the U.S. Environmental Protection
Agency’s (EPA’s) programs in           What We Found
preventing and addressing
contamination of surface water        Management controls put in place by the EPA to          EPA does not have
from hazardous chemicals              regulate and control hazardous chemical                 mechanisms to address
passing through publicly owned        discharges from sewage treatment plants to              discharge of hazardous
treatment works (hereafter            water resources have limited effectiveness. The         chemicals into water
“sewage treatment plants”).           EPA regulates hazardous chemical discharges to          resources.
Hazardous wastes, regulated by        and from sewage treatment plants, but these
the EPA, may be harmful to            regulations are not effective in controlling the discharge of hundreds of
human health or the environment.      hazardous chemicals to surface waters such as lakes and streams. Sewage
Sewage treatment plants receive       treatment plant staff do not monitor for hazardous chemicals discharged by
permits, from the EPA or states,      industrial users. This is due to a general regulatory focus on the priority
for discharges to surface waters      pollutants list that has not been updated since 1981, limited monitoring
that establish pollutant monitoring   requirements, limited coordination between EPA offices, a lack of tracking
requirements. However,                hazardous waste notifications required for submittal by industrial users, or a
hazardous chemicals discharged        lack of knowledge of discharges reported by industrial users under the Toxics
to sewers are not regulated under     Release Inventory. Except for EPA Region 9, sewage treatment plant permits
EPA hazardous waste regulations.      generally include very few monitoring requirements or effluent limits, which can
Rather, they are regulated under      limit enforcement actions.
the Clean Water Act, which
focuses on a list of 126 priority     The EPA developed whole effluent toxicity test results as a mechanism to
pollutants that does not include      identify toxic chemicals such as hazardous discharges to sewage treatment
many hazardous chemicals.             plants. However, these are not required for all permits, and are not tracked by
                                      the EPA to verify that sewage treatment plants are reporting results as
This report addresses the             required. Moreover, exceedances of chemical limits in permits and toxicity
following EPA goals or                tests do not trigger notification to enforcement programs. Consequently, the
cross-agency strategies:              EPA may not be aware of chemical discharge or toxicity exceedances that
  Protecting America’s waters.       should be addressed to minimize potentially harmful contamination of water
                                      resources.
  Ensuring the safety of
   chemicals and preventing
   pollution.
                                       Recommendations and Planned Agency Corrective Actions
  Protecting human health and        We recommend that the EPA develop a format for sharing annual Toxics
   the environment by enforcing       Release Inventory data, develop a list of chemicals beyond the priority
   laws and assuring                  pollutants list for inclusion in permits, confirm compliance with the hazardous
   compliance.                        waste notification requirement, and track required submittals of toxicity tests
                                      and violations. The agency suggested a change to one recommendation,
Send all inquiries to our public
affairs office at (202) 566-2391 or
                                      which the OIG accepted. All recommendations are resolved.
visit www.epa.gov/oig.
                                       Noteworthy Achievements
The full report is at:
www.epa.gov/oig/reports/2014/         The EPA has designed the Discharge Monitoring Report Pollutant Loading
20140929-14-P-0363.pdf                Tool to provide access to surface water discharge and other data.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460

                                                                                         THE INSPECTOR GENERAL




                                           September 29, 2014

MEMORANDUM

SUBJECT:       More Action Is Needed to Protect Water Resources From
               Unmonitored Hazardous Chemicals
               Report No. 14-P-0363

FROM:          Arthur A. Elkins Jr.

TO:            Ken Kopocis, Deputy Assistant Administrator
               Office of Water

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA office having primary jurisdiction over the issues evaluated in this report is the Office of
Water’s Office of Wastewater Management.

Action Required

You are not required to provide a written response to this final report, because you agreed to all
recommendations and provided corrective actions and completion dates that meet the intent of the
recommendations. All recommendations are resolved and open with corrective actions ongoing.

Should you choose to provide a response to this final report, we will post your response on the OIG’s
public website, along with our memorandum commenting on your response. You should provide your
response as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do not want
to be released to the public; if your response contains such data, you should identify the data for
redaction or removal along with corresponding justification.

We will post this report to our website at http://www.epa.gov/oig.
More Action Is Needed to Protect Water Resources                                                                        14-P-0363
From Unmonitored Hazardous Chemicals



                                  Table of Contents

 Chapters
   1    Introduction ......................................................................................................     1

                Purpose .....................................................................................................   1
                Background................................................................................................      1
                Scope and Methodology ............................................................................              6
                Prior Evaluation Coverage .........................................................................             7

   2   EPA Has Not Taken Actions to Address Discharges of Hundreds of
       Hazardous Chemicals From Sewage Treatment Plants ....................................                                    8

                EPA Does Not Clearly Identify and Regulate Hazardous
                   Chemical Discharges From Sewage Treatment Plants .......................                                      8
                Sewage Treatment Plants Monitor for Few Toxic Chemicals .....................                                   11
                Conclusions ...............................................................................................     18
                Recommendations .....................................................................................           18
                Agency Response and OIG Evaluation ......................................................                       19

   Status of Recommendations and Potential Monetary Benefits .............................                                      20



 Appendices
   A    Agency Response to Draft Report...................................................................                      21

   B    Distribution .......................................................................................................    26
                                             Chapter 1
                                              Introduction
Purpose
                  The purpose of this evaluation was to determine the effectiveness of the
                  U.S. Environmental Protection Agency’s (EPA’s) programs in preventing and
                  addressing contamination of surface water from hazardous wastes passing through
                  publicly owned treatment works (POTWs – hereafter also referred to as sewage
                  treatment plants1). This included examining the EPA’s role and oversight of
                  hazardous chemical2 discharges to sewage treatment plants, and determining the
                  effectiveness of the EPA’s management controls in regulating hazardous chemical
                  discharges from sewage treatment plants to surface water. We asked the following
                  questions:

                       Does the EPA regulate hazardous chemical discharges to and from sewage
                         treatment plants?

                       Do sewage treatment plants monitor discharges for hazardous chemicals?

                       Has the EPA taken actions to address discharges of hazardous chemicals
                         to and from sewage treatment plants?

Background
                  Hazardous waste has properties that make it dangerous or capable of having a
                  harmful effect on human health and the environment. Hazardous wastes are
                  regulated by the EPA under the Resource Conservation and Recovery Act
                  (RCRA). RCRA Subtitle C regulations address the generation, transportation, and
                  treatment, storage, or disposal of hazardous wastes. However, under the RCRA
                  domestic sewage exclusion, hazardous wastes discharged to sewage treatment


1
  The EPA defines a POTW as a treatment works owned by a state or municipality. This definition includes systems
used in the storage, treatment, recycling, and reclamation of municipal sewage or industrial wastes of a liquid nature.
In their technical comments on the draft report, the EPA states that the term publicly owned treatment works “is
specifically defined at 40 CFR 403.3(q) and section 212 of CWA as a treatment works which is owned by a State or
municipality. This term specifically includes the sewers, pipes, and conveyance system if and only if they convey
wastewater to a POTW Treatment Plant.” They also point out that NPDES regulations at 40 CFR 122.2 do not
contain the term “sewage treatment plant.” We use the term “sewage treatment plant” in this report in place of
“publicly owned treatment works” because we believe it is more understandable to a non-technical reader.
2
  The term “hazardous chemical” is used in this report to refer to chemicals that, if managed under the EPA
hazardous waste program, would be considered hazardous waste. Because hazardous waste discharged to sewage
treatment plants is no longer considered hazardous waste, this term is used minimally in this report.




14-P-0363                                                                                                            1
                  plants are not regulated by RCRA once they enter the sewer. Rather, they are
                  regulated under the Clean Water Act (CWA).

                  The CWA was passed in 1972 to restore and maintain the chemical, physical and
                  biological integrity of the nation’s waters. The goals of the CWA are to eliminate
                  the introduction of pollutants into the nation’s waters and to achieve fishable and
                  swimmable water quality. The CWA’s National Pollutant Discharge Elimination
                  System (NPDES) program represents one of the key components established to
                  accomplish the goals of the CWA. This program requires that direct dischargers3
                  to surface waters such as streams, lakes, and oceans obtain an NPDES4 permit
                  (hereafter “discharge permit”).

                  A sewage treatment plant is generally designed to treat typical household waste,
                  biodegradable commercial waste, and biodegradable industrial waste. However,
                  all users may also discharge toxic or non-conventional pollutants that the sewage
                  treatment plant is neither designed for nor able to remove. To ensure the goals of
                  the CWA are met, industrial and commercial users are required to comply with
                  pretreatment standards. Sewage treatment plants that discharge to the waters of
                  the United States must obtain a discharge permit. These permits include
                  requirements for discharge monitoring for specific chemicals, monitoring
                  frequency, effluent limits, and discharge toxicity tests. The sewage treatment
                  plant regulates discharges of industrial users through the CWA pretreatment
                  program. The CWA established the National Pretreatment Program to address
                  discharges from industrial users to sewage treatment plants. Figure 1 (next page)
                  illustrates the discharges of the industrial users to the sewage treatment plant, and
                  discharges of the sewage treatment plant to surface waters, and also identifies
                  some permitting and reporting requirements.

                  EPA guidance defines pretreatment as “The reduction of the amount of pollutants,
                  the elimination of pollutants, or the alteration of the nature of pollutant properties
                  in wastewater before or in lieu of discharging, or otherwise introducing, such
                  pollutants into a POTW.” EPA guidance from 2004 states that, as part of their
                  implementation of the industrial pretreatment program, municipal officials should
                  ensure that industrial users control and properly manage their hazardous waste.
                  This guidance further states that hazardous wastes discharged to sewers are
                  “subject to the CWA, must be reported to the POTW, and should meet all
                  applicable categorical and local discharge limits.”



3
  According to the EPA, a direct discharger is “A point source that discharges a pollutant(s) to waters of the United
States, such as streams, lakes, or oceans,” and includes sewage treatment plants. EPA considers indirect dischargers
“facilities that discharge their wastewaters to a POTW.”
4
  According to the EPA, the NPDES is the national program for issuing, modifying, revoking, reissuing, terminating,
monitoring, and enforcing discharge permits from point sources to waters of the United States, and imposing and
enforcing pretreatment requirements under the CWA. In this report, we use the term “discharge permit” instead of
“NPDES permit” except in direct quotes.




14-P-0363                                                                                                          2
                   The general pretreatment regulations establish responsibilities among federal,
                   state, and local government; industry; and the public to implement pretreatment
                   standards to control pollutants that pass through or interfere with sewage
                   treatment plant treatment processes or that can contaminate sewage sludge. The
                   pretreatment program focuses on 126 priority pollutants with defined test
                   methods. According to EPA regulations5, all major sewage treatment plants
                   (sewage treatment plants with a design flow rate equal to or greater than one
                   million gallons per day) and sewage treatment plants with approved or developing
                   pretreatment programs are required to submit the results of a monitoring scan for
                   a modified list of the priority pollutants at least once every 5 years when the
                   sewage treatment plant’s permit is renewed.

                   Thirty six states have an approved State Pretreatment Program.




5
    40 CFR 122.21(j)(4)(A) and (B).


14-P-0363                                                                                          3
            Figure 1: Diagram of industrial discharges to and from sewage treatment plants




            Source: OIG analysis.

            The EPA’s 1986 Report to Congress on the Discharge of Hazardous Wastes to
            Publicly Owned Treatment Works clarified that the basis of the domestic sewage
            exclusion is not that hazardous wastes discharged to sewer are rendered harmless,
            but rather that sufficient regulatory controls existed through the CWA
            pretreatment program. The report emphasized four recommendations:

                1. Additional research, data collection, and analysis are necessary to fill
                   information gaps on sources and quantities of hazardous wastes, their fate
                   and effects in sewage treatment systems and the environment, and the
                   design of any additional regulatory controls which might be necessary.



14-P-0363                                                                                    4
                      2. Improvements could be made to standards and pretreatment controls of
                         hazardous wastes discharges to sewage treatment plants.

                      3. EPA should utilize existing water programs to improve control of
                         hazardous wastes discharged to sewage treatment plants.

                      4. RCRA, the Comprehensive Environmental Response, Compensation and
                         Liability Act, and the Clean Air Act should be considered along with the
                         CWA to regulate hazardous waste discharges to sewage treatment plants
                         if the studies in recommendation 1 indicate problems.

                 The EPA developed regulations6 in accordance with the 1986 Report to Congress,
                 “to improve control of hazardous wastes introduced into POTWs under the
                 Domestic Sewage Exclusion.” These regulations included various restrictions on
                 discharges by industrial users to sewage treatment plants as well as various
                 permitting and reporting requirements for industrial users and sewage treatment
                 plants. These regulations also included a notification provision:7 “The Industrial
                 User shall notify the POTW, the EPA Regional Waste Management Division
                 Director, and State hazardous waste authorities in writing of any discharge into
                 the POTW of a substance, which, if otherwise disposed of, would be a hazardous
                 waste under 40 CFR part 261.” An industrial user is required to submit a one-time
                 notification for discharges of more than 15kg of hazardous waste in any month, or
                 any amount of acute hazardous waste8. If the discharge exceeds 100kg in any
                 month, the notification should include the hazardous constituents, the constituent
                 mass, and an estimate of the discharge for the next 12 months.

                 Information on some hazardous chemical discharges to sewage treatment plants is
                 available from the EPA’s Toxics Release Inventory (TRI). Information on
                 discharges from sewage treatment plants is available from the EPA’s Discharge
                 Monitoring Report (DMR) Pollutant Loading Tool. The TRI program tracks the
                 management of certain toxic chemicals that may pose a threat to human health
                 and the environment. U.S. facilities in different industry sectors must report
                 annually how much of each chemical is released to the environment and/or
                 managed through recycling, energy recovery and treatment. A “release” of a
                 chemical means that it is emitted to the air or water, or placed in some type of
                 land disposal. In general, chemicals covered by the TRI Program are those that
                 cause chronic or acute human health effects or significant adverse environmental
                 effects. The TRI Program currently covers 683 chemicals and chemical categories
                 including many, but not all, hazardous chemicals9. TRI filers are required to

6
  Federal Register Vol. 55, No. 142, July, 24, 1990.
7
  40 CFR Part 403.12(p).
8
  Acute hazardous waste contains such dangerous chemicals that it could pose a threat to human health and the
environment even when properly managed.
9
  TRI chemicals also include many chemicals not listed as hazardous waste.




14-P-0363                                                                                                       5
                 report the chemicals that are released or transferred from their facility. The
                 information submitted by facilities is compiled in the TRI.

                 According to the EPA, the DMR Pollutant Loading Tool10 is designed to
                 determine “who is discharging, what pollutants they are discharging and how
                 much, and where they are discharging.” Data are currently available for the years
                 2007 through 2011. Individuals using the tool can identify sewage treatment
                 plants using a name or partial name, and download data on toxic pollutant
                 loadings for all sewage treatment plants for which data has been entered.

                 The following offices are responsible for EPA programs related to the evaluation
                 of hazardous discharges by sewage treatment plants:

                        The Office of Wastewater Management in the Office of Water oversees a
                         range of programs contributing to the well-being of the nation’s waters
                         and watersheds.

                      The Office of Resource Conservation and Recovery in the Office of Solid
                        Waste and Emergency Response implements RCRA.

                      The Office of Information Analysis and Access in the Office of
                        Environmental Information oversees the TRI program.

                      The Office of Civil Enforcement in the Office of Enforcement and
                        Compliance Assurance develops and prosecutes administrative civil and
                        judicial cases and provides legal support for cases and investigations
                        initiated in EPA regions.

                        The Office of Compliance in the Office of Enforcement and Compliance
                         Assurance manages the ICIS-NPDES data system and the DMR Pollutant
                         Loading Tool.

                        The Office of Criminal Enforcement, Forensics and Training investigates
                         violations of environmental laws and provides a broad range of technical
                         and forensic services for civil and criminal investigative support and
                         council on legal and policy matters.

Scope and Methodology
                 We conducted our work from March 2013 to June 2014. We conducted this
                 performance audit in accordance with generally accepted government auditing
                 standards. Those standards require that we plan and perform the audit to obtain
                 sufficient, appropriate evidence to provide a reasonable basis for our findings and

10
  This tool is available to the public at http://cfpub.epa.gov/dmr/index.cfm. The tool uses DMR data from EPA's
Integrated Compliance Information System for the National Pollutant Discharge Elimination System (ICIS-NPDES)
to calculate pollutant discharge amounts.


14-P-0363                                                                                                     6
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.

            We interviewed EPA headquarters staff, in the Office of Resource Conservation
            and Recovery in the Office of Solid Waste and Emergency Response, the Toxics
            Release Inventory Program Division in the Office of Environmental Information,
            the Office of Wastewater Management in the Office of Water, and the Office of
            Enforcement and Compliance Assurance. We also interviewed regional
            Pretreatment Coordinators and staff in EPA Regions 2, 3, 5, 6 and 9 about specific
            discharges to and from sewage treatment plants. We analyzed regional data on
            specific discharges not tracked through the (NPDES) discharge permit monitoring
            using TRI and the Discharge Monitoring Report Pollutant Loading Tool.

            To analyze hazardous chemical discharges to sewage treatment plants, we
            obtained quantitative data for discharges of hazardous chemicals to all sewage
            treatment plants reported in the 2011 EPA TRI. TRI data from 2011 were the
            most current data available when we performed the analyses. We identified the
            largest dischargers of hazardous chemicals from 2011 TRI data. We then used the
            TRI forms to identify the receiving sewage treatment plant, and determined if the
            hazardous chemicals were monitored in the sewage treatment plant’s (NPDES)
            discharge permit by analyzing permit data from the EPA’s Discharge Monitoring
            Report Pollutant Loading Tool.

            We reviewed EPA programs, regulations, and guidance documents related to
            industrial dischargers and sewage treatment plants, the CWA and its
            implementing regulations, RCRA Codes and Domestic Sewage Exclusion,
            (NPDES) discharge permit and listed chemicals, and the EPA’s local limits
            guidance. We reviewed 2011 TRI hazardous chemical discharges to sewage
            treatment plants for the selected regions to determine whether
            EPA/regions/states/sewage treatment plant staff are aware of these discharges and
            if these are monitored and tracked. In our interviews with EPA and state staff in
            the offices mentioned above, we asked targeted questions regarding sewage
            treatment plant monitoring, priority pollutants, whole effluent toxicity tests,
            hazardous waste notification forms, and enforcement actions on exceedances.

Prior Evaluation Coverage
            The following EPA Office of Inspector General (OIG) reports addressed issues
            related to pretreatment and TRI reporting:

                Report No 2004-P-00030, EPA Needs to Reinforce Its National
                  Pretreatment Program, issued September 28, 2004.

                Report No 2004-P-00004, EPA Should Take Steps to Improve Industrial
                  Reporting to the Toxics Release Inventory System, issued February 2, 2004.



14-P-0363                                                                                      7
                                  Chapter 2
         EPA Has Not Taken Actions to Address
    Discharges of Hundreds of Hazardous Chemicals
            From Sewage Treatment Plants
            The EPA regulates discharges to and from sewage treatment plants, but these
            regulations are not effective in controlling the discharge of hundreds of hazardous
            chemicals to surface waters such as lakes and streams. Sewage treatment plant
            staff do not monitor for hazardous chemicals discharged by industrial users. This
            is the result of factors we observed, including a general regulatory focus on the
            priority pollutants list that has not been updated since 1981, limited monitoring
            requirements, limited coordination between EPA offices, a lack of tracking
            hazardous waste notifications required for submittal by industrial users, or a lack
            of awareness of discharges reported by industrial users under the Toxics Release
            Inventory. Except for EPA Region 9, sewage treatment plant permits generally
            include very few monitoring requirements, which can limit enforcement actions.
            Whole effluent toxicity tests were developed by the EPA as a mechanism to
            identify toxic chemicals such as hazardous waste. However, these toxicity tests
            are not be required for all permits, and are not tracked by the EPA to verify that
            sewage treatment plants are reporting results as required. Moreover, exceedances
            of chemical limits in permits and toxicity tests do not trigger notification to
            enforcement programs. Consequently, the EPA may not be aware of exceedances
            that should be addressed to minimize potentially harmful contamination of water
            resources.

EPA Does Not Clearly Identify and Regulate Hazardous Chemical
Discharges From Sewage Treatment Plants
            Priority Pollutants List Not Updated Since 1981

            As a result of a suit filed by several environmental groups against the EPA in
            1975, the EPA agreed to regulate the discharge of 65 categories of pollutants
            comprising 126 priority pollutants from 21 industrial categories. Despite changes
            in the list of regulated industrial categories and the number of pollutants
            discharged, the EPA has not updated the list of 126 priority pollutants since 1981.

            Hundreds of RCRA Hazardous Chemicals are Not Listed as Clean
            Water Act Priority Pollutants

            Figure 2 compares the RCRA hazardous chemicals with those on the CWA
            priority pollutants list. There are 83 RCRA hazardous chemicals that are also
            included on the CWA priority pollutants list. However, there still remain about
            300 RCRA hazardous chemicals not included on the CWA priority pollutants list.


14-P-0363                                                                                     8
                 This illustrates the large number of RCRA hazardous chemicals not monitored by
                 sewage treatment plants in their discharge permits, including many acute
                 hazardous wastes such as pesticides, metals and organic solvents.

                 Figure 2: RCRA hazardous chemicals overlap with CWA priority pollutants listed
                 chemicals11




                 Source: OIG analysis.

                 Agency Staff Uncertain About Regulating Beyond 33-Year Old Clean
                 Water Act Priority Pollutants

                 The CWA gives the EPA authority to regulate “any pollutant” through a discharge
                 permit. At the same time, the CWA incorporates the priority pollutants list into
                 law and requires that effluent limitations be promulgated for the chemicals on the
                 list. This has created a focus on the CWA priority pollutants list for discharge
                 permits.

                 Some EPA staff, including enforcement staff, stated that the EPA has the
                 authority to regulate any chemical necessary to achieve water quality standards.
                 However, other staff within the EPA and states expressed different opinions about
                 regulating chemicals beyond the list of priority pollutants. For example:

                        Monitoring for specific chemicals by a sewage treatment plant is not
                         required because the chemicals are not on the list of priority pollutants.

                        Monitoring for specific chemicals is not required because the chemicals
                         are not on the state list of chemicals identified for monitoring.

11
  The number of RCRA hazardous waste chemicals in this diagram includes chemicals specifically listed by EPA as
hazardous wastes or acute hazardous wastes.


14-P-0363                                                                                                    9
                  Chemicals cannot be in a discharge permit if they are not on the list of
                   priority pollutants.

                  Discharge permits are designed to primarily regulate chemicals on the list,
                   although programs do have the authority to regulate beyond the list.

                  Sewage treatment plants probably focus on priority pollutants because the
                   state and EPA focuses on them.

            According to the CWA, discharge permits may be issued for a term of up to 5
            years. According to EPA staff, as part of the renewal application process, sewage
            treatment plants screen for the 126 priority pollutants. Based on the data
            submitted, the permit writer then determines whether there is a reasonable
            potential for any of the pollutants to impact the water quality of the receiving
            water body. Only those pollutants identified as a concern are put in the permit
            either with limits or for monitoring only. Thus, discharge permits remain more
            focused on the priority pollutants list than on the CWA’s broader authority to
            regulate any pollutant that impairs water quality. As a result, other chemical
            discharges not included on the priority pollutants list, such as many RCRA
            hazardous wastes, are not monitored. Lack of monitoring or limits for these
            chemicals may result in contamination of surface waters.

            Industrial Users’ Hazardous Waste Discharge Reports May Not Have
            Been Submitted as Required

            Under the general pretreatment regulations, industrial users are required to notify
            the sewage treatment plant, the EPA Regional Waste Management Division
            Director, and state hazardous waste authorities in writing of any discharge into the
            sewage treatment plant of a substance, which, if otherwise disposed of, would be
            a hazardous waste. This refers to RCRA hazardous wastes. However, when we
            asked EPA staff about these notifications, there was a general lack of awareness
            of the requirement.

            During interviews with EPA staff in headquarters, and Regions 2, 3, 5, 6 and 9, as
            well as state staff, we asked if the hazardous waste notifications had been
            submitted as required and if they were tracked. We received various responses,
            including:

                  EPA regional and sewage treatment plant staff stated that the discharges
                   are not considered hazardous waste so this notification was not required.

                  One EPA region believed that based on information available through the
                   pretreatment program, the notification did not have to be submitted. The
                   region also stated that failure to notify, or to discharge hazardous wastes
                   would be met with enforcement action, and that is the deterrent.



14-P-0363                                                                                      10
                        The pretreatment coordinator of another EPA region noted that he had
                         seen the notification forms some time ago and that they perform annual
                         archives of the sewage treatment plant files.

                        Two states in one EPA region with authorized state programs informed us
                         that the discharger files the hazardous waste discharge notification.
                         However, one of the states indicated the notifications do not go to the
                         region, but rather to the state hazardous waste office and the sewage
                         treatment plant.

                        One EPA region was unfamiliar with the notification requirements and
                         had not seen notifications from industrial users for discharging hazardous
                         waste to sewage treatment plants.

                 In the 1990 final rule that established the notification requirement, the EPA noted
                 that “There is currently no regulatory requirement that industrial users report the
                 discharge of all hazardous wastes to sewers.” The final rule further stated that the
                 information provided by the hazardous waste notification “is needed for the
                 ultimate development by POTWs of controls to prevent pass through and
                 interference.” In addition, the rule indicated the agency was considering the
                 development of a database of notification information that would make the
                 information available in a usable format for interested parties. Based on our
                 interviews with the EPA and states, the notification is not providing information
                 to the sewage treatment plants as intended. Not only is there no database of the
                 information, we found that no compilation of the notification forms was available
                 in the regions and states we interviewed. Further, there is a general lack of
                 knowledge of the requirement, and no reliance upon or use of the notifications by
                 the sewage treatment plants to manage the discharge of hazardous wastes.

Sewage Treatment Plants Monitor for Few Toxic Chemicals
                 Number of Chemicals Monitored by EPA Regions Varies Widely

                 According to EPA staff, while sewage treatment plants are required to perform a
                 monitoring scan for all 126 CWA priority pollutants once every 5 years, the EPA
                 does not require that all 126 priority pollutants be included on a sewage treatment
                 plant’s DMR. Analysis of DMR data reported to the EPA reveals large regional
                 differences in the number of chemicals12 monitored and reported on the DMR.
                 Sewage treatment plant discharge permits within Region 9 require monitoring for
                 many more toxic chemicals as compared to other regions. For example acrolein,
                 which is an acute RCRA hazardous waste and is also a priority pollutant, is
                 monitored by a total of 194 sewage treatment plants nationwide. Of these sewage
                 treatment plants, 193 are in Region 9. Region 9 stated that monitoring can assist
12
 These are chemicals for which the EPA has developed a toxicity weighting factor in the Discharge Monitoring
Report Pollutant Loading Tool, which includes many hazardous waste chemicals.


14-P-0363                                                                                                      11
            with identifying chemicals that need a limit set during the next discharge permit
            term.

            The extent of the disparity of regional discharge monitoring requirements and
            reporting is illustrated in Figure 3. Region 9’s states require an average of more
            than 104 chemicals/sewage treatment plant, while other regions require an
            average of fewer than four chemicals/sewage treatment plant.

            Figure 3: Number of toxic chemicals monitored per sewage treatment
            plant by EPA region




            Source: OIG analysis of data from the EPA's DMR Pollutant Loading Tool.

            Lack of Data in Discharge Permits Can Hamper Enforcement

            Enforcement actions against a sewage treatment plant due to pass through of
            chemicals from the sewage treatment plant into the receiving water body can be
            taken when there is a violation of any requirement of the sewage treatment plant’s
            discharge permit. According to the Code of Federal Regulations (CFR) in 40 CFR
            §403.3(p), “The term Pass Through means a Discharge which exits the POTW
            into waters of the United States in quantities or concentrations which, alone or in
            conjunction with a discharge or discharges from other sources, is a cause of a
            violation of any requirement of the POTW’s NPDES permit (including an
            increase in the magnitude or duration of a violation).” As a result, enforcement
            action relies on pollutants and limits documented in a discharge permit. Without
            monitoring or limits in place, certain pollutants may be discharged by the sewage
            treatment plant and potentially harm human health and the environment.




14-P-0363                                                                                        12
            Region 9 staff did not have an explanation for the additional monitoring
            performed by sewage treatment plants in their region. We did find examples of
            additional monitoring of chemicals by sewage treatment plants outside of Region
            9 states, but the monitoring results were not included in the DMRs. Staff in one
            EPA region stated that information on chemicals not reported in the DMRs are
            available in annual sewage treatment plant reports. However, including
            monitoring data in discharge permits, as Region 9 does, provides regulators with
            the ability to readily identify chemicals in need of discharge limits and identify
            and enforce pass through violations. Further, the discharge permits for Region 9
            states’ sewage treatment plants include more hazardous chemicals than the
            sewage treatment plant discharge permits in other states.

            Discharge Permit and Pretreatment Programs Do Not Always
            Coordinate

            EPA regions directly implement discharge permit programs in the four states that
            have not received program authorization. EPA still retains oversight authority for
            states with authorized programs. Pretreatment programs may also be authorized to
            states; however some states have been authorized to implement the discharge
            permit program but not the pretreatment program. In some cases, this has resulted
            in separate organizations managing the discharge permit and pretreatment
            programs. In these cases the pretreatment programs may not provide input to
            identify the chemicals that should be included for monitoring in the discharge
            permits.

            EPA Office of Water staff stated that the pretreatment and discharge programs do
            not necessarily coordinate efforts during the discharge permit application review
            and issuance process. Staff in the Office of Water noted that the pretreatment
            coordinators do not appear to have the role they should during the permit writing
            process and acknowledged that there is an issue with coordinated efforts between
            the programs for permit quality review. As a result, the pretreatment program staff
            may not have been included in determining which chemicals should be included
            in the sewage treatment plant discharge permits. This could result in the absence
            of pretreatment controls in the discharge permits, which impacts what is or is not
            being monitored for by sewage treatment plants in their discharge permits.
            Pretreatment enforcement staff in one region specifically noted that they did not
            have the opportunity to review the draft discharge permits before they were
            issued.

            Whole Effluent Toxicity Test Not Effectively Used for Monitoring and
            Enforcement

            In the 1980s, the EPA recognized that some sewage treatment plant discharges
            remained toxic despite pretreatment programs which were designed to prevent
            pass through of specific chemicals. As a result, the EPA developed a control to
            reduce or eliminate toxic discharges based on whole effluent toxicity (WET)



14-P-0363                                                                                     13
                  testing. According to EPA regulations13, sewage treatment plants with flow rates
                  equal to or greater than one million gallons per day, or sewage treatment plants
                  with pretreatment program requirements, must submit three WET test results
                  taken within a four and one-half year period prior to the date of the discharge
                  permit application. EPA staff stated that WET test results are an integral tool in
                  the assessment of water quality. When a WET test exceedance is encountered, the
                  sewage treatment plant conducts a series of additional tests to identify the toxic
                  pollutants and their source so pass through can be eliminated.

                  During our interviews, EPA staff repeatedly stated that the WET tests provide a
                  suitable backup mechanism for identifying possible discharges of hazardous
                  waste. However, according to data supplied by EPA14 we found that WET test
                  reporting requirements and tracking of the results do not provide backup for
                  possible discharges (Figure 4):

                         Not all sewage treatment plants are required to report– According to the
                          EPA, during 2011 there were 14,241 active sewage treatment plants
                          nationwide. However, only 4,399 (31 percent) of these were required to
                          report WET test results. Reporting was not required for 9,842 (69 percent)
                          of the sewage treatment plants, which significantly restricts any use of the
                          WET test as a backup mechanism to identify hazardous chemical
                          discharges.

                         Only about half of the sewage treatment plants report as required – Of the
                          4,399 required to report, only 1,992 (45 percent) submitted WET test
                          results. According to EPA staff, not all data may be entered into the data
                          system. Therefore, more sewage treatment plants may have completed the
                          required WET test, and 1,992 reflects those WET test submittals entered.

                         No system controls automatically track required submittals or exceedances
                          – According to EPA staff, there are no mechanisms for the automatic
                          identification, tracking, and follow-up of required WET test submittals or
                          exceedances. This limits the effectiveness of WET test in identifying
                          releases of unidentified chemicals such as hazardous waste.

                  According to the Office of Water, the permitting authority determines the WET
                  test requirements and frequency. Office of Water staff also acknowledged that
                  monitoring is important as it improves the chances of identifying toxic chemicals
                  such as hazardous wastes. The lack of regular reporting, tracking, and follow-up
                  on WET test exceedances limits the ability of WET tests to provide a mechanism
                  to identify discharges of hazardous chemicals that may not otherwise have been
                  identified by the sewage treatment plant.



13
     40 CFR 122.21(j)
14
     Data were from EPA’s ICIS-NPDES database.


14-P-0363                                                                                           14
                 Figure 4: WET Test Results




                 Source: OIG analysis of data supplied by EPA staff.



                 Hazardous Chemical Sewage Treatment Plant Discharges Identified
                 in TRI Not Monitored

                 Although TRI reporting does not include all industrial users discharging to
                 sewage treatment plants or all hazardous chemicals, it is a source of data readily
                 available to identify discharges of hazardous wastes to sewage treatment plants.
                 We used 201115 TRI data to query EPA regions, states, and/or sewage treatment
                 plants to determine their awareness and management of TRI hazardous chemical
                 discharges. We identified hazardous chemicals discharged by TRI reporters to
                 sewage treatment plants. We initially identified 731 discharges of hazardous
                 chemicals, and narrowed this list down to 207 discharges by eliminating TRI
                 reporters with small volume discharges. We found that sewage treatment plants
                 monitor for few of the chemicals. Of the 207 discharges identified, only 28




15
 At the time of our analysis, data from 2011 were the most current available from TRI and the Discharge
Monitoring Report Pollutant Loading Tool.


14-P-0363                                                                                                 15
            (14 percent) were chemicals monitored on the sewage treatment plants’ discharge
            permits (Figure 5).

            We further analyzed data for a small number of sewage treatment plants to
            examine reasons hazardous chemicals are not monitored. We selected eight
            sewage treatment plants for additional follow-up based on the high TRI discharge
            volume and number of TRI hazardous chemicals that were not monitored in their

             Figure 5: TRI hazardous waste chemicals present in permits




            Source: OIG analysis of data from TRI and the EPA’s DMR Pollutant Loading Tool.

            discharge permits. We had discussions with the EPA region, authorized state,
            and/or the sewage treatment plant to determine if they were aware of the TRI
            discharges and determine why the chemicals were not included in the discharge
            permits. We found the eight sewage treatment plants did monitor for 14 of the 50
            (28 percent) chemicals identified. However, the monitoring was not required by
            the sewage treatment plant discharge permits, and was not reported to EPA.




14-P-0363                                                                                     16
            More importantly, the eight sewage treatment plants did not monitor for 36 of the
            50 (72 percent) hazardous chemicals identified, which included some acute
            hazardous chemicals. We received a range of responses for the sewage treatment
            plants’ lack of monitoring, including:

                   Monitoring of the chemicals was not necessary because the chemicals in
                    question should be metabolized and rendered harmless in the sewage
                    treatment process.

                   Monitoring of the chemicals was not required because the chemicals had
                    been monitored in past years and the discharges were inconsequential. In
                    some cases this was between 7 and 24 years ago.

                   No response for why specific chemicals were not monitored.

                   Chemicals were not monitored because they were not on the list of
                    priority pollutants or a state list.

                   Data were submitted on an annual report to the state.

                   Discharges from the sewage treatment plant were not monitored because
                    the influent from the industrial users was monitored.

            These responses indicate that sewage treatment plants are not always monitoring
            chemical discharges, which could result in their release to the environment and
            impair appropriate enforcement. The sewage treatment plants did not routinely
            review the TRI data to ensure complete knowledge of the discharges from their
            respective industrial users. Although there is no requirement that sewage
            treatment plants use TRI data, we believe these data could provide a useful
            resource. Discharge permit writers, pretreatment authorities and sewage treatment
            plants could utilize TRI data to enhance their knowledge of all industrial user
            discharges. This would help ensure that permits accurately represent known
            discharges, mitigating the risk of potential release of these chemicals into the
            environment.

            Exceedances in Discharge Monitoring Reports Do Not Automatically
            Trigger Follow-up

            Although sewage treatment plants report annual monitoring data in Discharge
            Monitoring Reports, there is no automatic trigger in EPA information systems to
            notify enforcement staff of chemical exceedances. According to the EPA, to
            identify exceedances in violation of discharge permit limits, an exceedance report
            from the Discharge Monitoring Report must be manually generated. Thus,
            enforcement and oversight of chemical exceedances rely on the individual review
            of exceedance reports by states or the EPA. As a result, exceedances of discharge
            permit limits may not be identified or reviewed. This could result in the potential
            undetected discharge of chemicals beyond their defined maximum levels.


14-P-0363                                                                                    17
Conclusions

            Management controls put into place by the EPA to regulate and control hazardous
            chemical discharges from sewage treatment plants to water resources are not
            always effective. According to interviews with the EPA’s enforcement and
            permitting staff, states and sewage treatment plant operators, all parties are not
            always aware of all hazardous chemical discharges flowing into and out of the
            sewage treatment plant. In addition, most hazardous chemical discharges we
            identified in selected sewage treatment plants are not monitored by the sewage
            treatment plants. As a result, sewage treatment plants may not be adequately
            treating wastewater entering their facilities and are at risk of discharging
            hazardous chemicals into receiving bodies of water such as rivers and streams.
            These hazardous chemical discharges can have detrimental effects on human
            health and the environment. The EPA’s limited management controls for
            identifying and monitoring hazardous chemical discharges from sewage treatment
            plants do not support the CWA’s objective to maintain the integrity of the
            nation’s waters.

Recommendations
            We recommend that the Assistant Administrator for Water:

               1. Develop, in coordination with the Office of Environmental Information, a
                  usable format for sharing TRI data on discharges sent to sewage treatment
                  plants, with OW developing materials to explain the utility of TRI data to
                  NPDES permit writers and pretreatment program personnel. This will
                  include exploring options for an online search tool to more easily identify
                  TRI discharges to specific sewage treatment plants.

               2. Develop, in coordination with EPA regions, a list of chemicals beyond the
                  priority pollutants appropriate for inclusion among the chemicals subject
                  to discharge permits. This may include:

                       a. Review of TRI-reported discharges to sewage treatment plants.
                          Initial review could focus on RCRA hazardous chemicals reported
                          in TRI.

                       b. Review of chemicals monitored nationwide in sewage treatment
                          plant discharge permits, especially chemicals monitored by
                          Region 9.

                       c. Review of chemical monitoring data already collected by sewage
                          treatment plants but not included in discharge permits.

                       d. Discussion with the Office of Resource Conservation and
                          Recovery for suggested hazardous chemicals.


14-P-0363                                                                                   18
                      e. Development of mechanisms that ensure discharge and
                         pretreatment programs coordinate during discharge permit writing.

               3. Confirm, in coordination with the Office of Enforcement and Compliance
                  Assurance and EPA regions, that sewage treatment plants and their
                  industrial users are aware of and comply with the 40 CFR 403.12(p)
                  requirement that industrial users submit hazardous waste notifications.

               4. Develop, in coordination with the Office of Enforcement and Compliance
                  Assurance, mechanisms to:

                      a. Improve sewage treatment plant compliance with permit terms that
                         require submission of WET monitoring results to the permitting
                         authority.

                      b. Facilitate the use of monitoring data to track facilities that have
                         violated chemical or WET permit exceedance requirements.

Agency Response and OIG Evaluation
            The agency agreed with recommendations 2, 3, and 4. They disagreed with
            recommendation 1 but suggested a minor revision which meets the intent of the
            recommendation. All recommendations are resolved. The agency provided
            corrective action plans with milestone dates for all recommendations. Based on
            the agency’s response, all recommendations are open with corrective actions
            underway. The Agency provided the planned completion date of 9/30/15 for all
            recommendations. Appendix A contains the agency’s response to our draft report
            and planned actions to address our recommendations. We reviewed the agency’s
            technical comments and made revisions to the report as appropriate.




14-P-0363                                                                                      19
                             Status of Recommendations and
                               Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                Planned
 Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
 No.      No.                              Subject                                 Status1   Action Official      Date      Amount      Amount

  1       18    Develop, in coordination with the Office of Environmental            O        Assistant         09/30/15
                Information, a usable format for sharing TRI data on                         Administrator
                discharges sent to sewage treatment plants, with OW                           for Water
                developing materials to explain the utility of TRI data to
                NPDES permit writers and pretreatment program personnel.
                This will include exploring options for an online search tool to
                more easily identify TRI discharges to specific sewage
                treatment plants.

  2       18    Develop, in coordination with EPA regions, a list of                 O        Assistant         09/30/15
                chemicals beyond the priority pollutants appropriate for                     Administrator
                inclusion among the chemicals subject to discharge permits.                   for Water
                This may include:
                     a. Review of TRI-reported discharges to sewage
                        treatment plants. Initial review could focus on
                        RCRA hazardous chemicals reported in TRI.

                     b. Review of chemicals monitored nationwide in
                        sewage treatment plant discharge permits,
                        especially chemicals monitored by Region 9.

                     c. Review of chemical monitoring data already
                        collected by sewage treatment plants but not
                        included in discharge permits.

                     d. Discussion with the Office of Resource
                        Conservation and Recovery for suggested
                        hazardous chemicals.

                     e. Development of mechanisms that ensure
                        discharge and pretreatment programs coordinate
                        during discharge permit writing.

  3       19    Confirm, in coordination with the Office of Enforcement and          O        Assistant         09/30/15
                Compliance Assurance and EPA regions, that sewage                            Administrator
                treatment plants and their industrial users are aware of and                  for Water
                comply with the 40 CFR 403.12(p) requirement that
                industrial users submit hazardous waste notifications.
  4       19    Develop, in coordination with the Office of Enforcement and          O        Assistant         09/30/15
                Compliance Assurance, mechanisms to:                                         Administrator
                                                                                              for Water
                     a. Improve sewage treatment plant compliance with
                        permit terms that require submission of WET
                        monitoring results to the permitting authority.

                     b. Facilitate the use of monitoring data to track
                        facilities that have violated chemical or WET
                        permit exceedance requirements.


 O = Recommendation is open with agreed-to corrective actions pending.
 C = Recommendation is closed with all agreed-to actions completed.
 U = Recommendation is unresolved with resolution efforts in progress.




14-P-0363                                                                                                                                     20
                                                                                    Appendix A

                  Agency Response to Draft Report
                                      (Dated July 28, 2014)



MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report/Project No. OPE-FY13-0015
               “More Action Is Needed to Protect Water Resources from Unmonitored
               Hazardous Waste,” dated June 27, 2014

FROM:          Nancy K. Stoner
               Acting Assistant Administrator

TO:            Arthur A. Elkins Jr.
               Inspector General

Thank you for the opportunity to respond to the issues and recommendation in the subject Draft
Report. Following is a summary of the Agency’s overall position, along with its position on each
of the Draft Report’s recommendations. For the Draft Report’s recommendations with which the
agency agrees, we have provided high-level intended corrective actions and estimated
completion dates. For the report recommendation with which the agency does not agree, we have
explained our position and proposed an alternative to the recommendation. For your
consideration, we have included a Technical Comments Attachment to supplement this response.

AGENCY’S OVERALL POSITION

The EPA agrees that the effectiveness of the National Pollutant Discharge Elimination System
(NPDES) permit program and the National Pretreatment Program in preventing and addressing
contamination of surface water from hazardous pollutants could be improved. We believe that
the current regulatory structure provides for adequate controls to address hazardous pollutants,
however, we welcome the IG’s recommendations on potential improvements to the
implementation of these programs. While we agree that there is room for improvement, we have
some concerns about some of the findings and one of the recommendations.

Generally, OW is concerned that the draft report uses terminology in unconventional manners,
inconsistent with the way the same terms are specifically defined in regulations, especially with
respect to the term “hazardous waste”. This might have led the OIG to draw inaccurate
conclusions. Similarly, readers of the report may also misinterpret both the findings and
conclusions as they may rely on their knowledge and application of the regulatory definitions.
We recommend that the OIG either use terms consistent with how they are defined in the
regulations or clearly state how and why unconventional definitions are being used in the report.




14-P-0363                                                                                      21
“Hazardous waste” is a term of art under the Resource Conservation and Recovery Act (RCRA)
statute, and not a term used in the Clean Water Act (CWA). A RCRA regulation known as the
“domestic sewage exclusion” says that waste mixed with sewage cannot be “solid waste,” see 40
CFR 261.4(a)(1). Under RCRA, if a waste is not a “solid waste”, it cannot be a “hazardous
waste.” It is therefore regulated by the CWA and not the RCRA. Thus, the use of the term
"hazardous waste" in this CWA context is incorrect. Thus, the use of the term “hazardous
waste” in the Draft Report’s title and throughout the draft report is incorrect. As an alternative,
we suggest the terms “hazardous chemicals” or “hazardous pollutants” could be used.

There are other terms that are misused. Please see the attached Technical Comments for detailed
explanation of the apparent misuse of these terms.

The OIG should update the report to clarify its use of these terms and phrases to reflect
appropriate legal usage or explain why the OIG is using non-traditional use of legal terms.

 OIG Response: The term “hazardous chemical” is used wherever possible, and the use of this
 term in referring to hazardous waste is footnoted. We have incorporated changes in
 terminology and explanatory footnotes as needed to address the issues cited in the technical
 comments.

Below is our consolidated response to the OIG Recommendations. Our response is separated
into two sections: Recommendations to which we agree and identify our intended corrective
action (OIG Recommendations 2, 3, and 4); and the Recommendation to which we disagree and
provide a proposed alternative (Recommendation 1).

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
 No. Recommendation                         High-Level Intended Corrective Action(s)          Estimated
                                                                                           Completion by FY

  2    Coordinate with EPA regions          OW will issue a memorandum to the regions         09/30/2015
       to develop suggested                 and notify approved pretreatment states
       chemicals, beyond the priority       describing best practices for how the NPDES
       pollutants, for possible             permits and the pretreatment programs
                                            coordinate. This memorandum will include
       inclusion in discharge permits.      information on how to access information
       This may include:                    reported by industries per 40 CFR 403.12 on
       a. Review of TRI-reported            discharges sent to POTWs, including TRI data
       discharges to sewage treatment       and notifications of substances, which, if
       plants. Initial review could focus   otherwise disposed of, would be a hazardous
       on RCRA hazardous chemicals          waste. The best practices will describe how
       reported in TRI.                     such data are used by NPDES permit writers
       b. Review of chemicals               and pretreatment program personnel to
       monitored nationwide in sewage       properly address such pollutants.
       treatment plant discharge permits,
       especially chemicals monitored
       by Region 9.



14-P-0363                                                                                        22
       c. Review of chemical               In addition, the OW will also review chemicals
       monitoring data already             monitored by POTWs as reported on DMRs
       collected by sewage                 and available as in ICIS-NPDES.
       treatment plants but not
       included in discharge               The OW will also engage in a discussion with
       permits.                            staff from ORCR regarding suggested
       d. Discussion with the              hazardous waste chemicals.
       Office of Resource
       Conservation and Recovery
       for suggested hazardous
       waste chemicals.
       e. Develop mechanisms that ensure
       discharge and pretreatment
       programs coordinate during
       discharge permit writing.


 No.   Recommendation                      High-Level Intended Corrective Action(s)         Estimated
                                                                                            Completion by FY
  3    Coordinate with Office of           OECA and OW will issue a joint                      09/30/2015
       Enforcement and Compliance          memorandum to the regions and approved
       Assurance and EPA regions to        pretreatment states that discusses the
       confirm sewage treatment plants     requirement to submit notifications per 40
       and industrial users are aware of   CFR 403.12(p) and 40 CFR 403.12(j) of
       and comply with the 40 CFR          substances, which, if otherwise disposed
       403.12(p) requirement that          of, would be a hazardous waste and to
       industrial users submit             highlight the importance of the
       hazardous waste notifications.      notifications in the pretreatment program.
                                           The memorandum will also emphasize the
                                           Control Authority’s responsibility to
                                           ensure industrial users are complying with
                                           this requirement.


 No.   Recommendation                      High-Level Intended Corrective Action(s)         Estimated
                                                                                            Completion by FY
  4    Coordinate with the Office of   a. 1.) OECA and OW will develop                         09/30/2015
       Enforcement and Compliance         training materials that explain the
       Assurance to develop a             importance of WET permit
       mechanism to:                      requirements and how to comply with
       a. Improve sewage treatment        them (e.g., doing required monitoring
          plant compliance with permit    and completing DMRs).
          terms that require              2.) OECA will post the training
          submission of WET               materials on WET compliance to the
          monitoring results to the       website for the Local Governments
          permitting authority.
                                          Environmental Assistance Network
       b. Facilitate the use of
          monitoring data to track


14-P-0363                                                                                        23
            facilities that have violated      (EPA compliance assistance center,
            chemical or WET permit             http://lgean.org/ ).
            exceedance requirements.
                                            b. OECA will develop an ICIS-NPDES
                                               standard report for WET violations and
                                               announce the availability of the report
                                               to regions and states along with some
                                               explanation of how to utilize the
                                               reports for program implementation
                                               and oversight activities.

Disagreements
 No. Recommendation                         Agency Explanation/Response        Proposed Alternative
  1    Coordinate with the Office of        TRI data are already publicly      Coordinate with the Office of
       Environmental Information to         available. However, knowledge      Environmental Information
       develop processes for annual         of how to easily access the data   [OEI] to develop a usable
       distribution of TRI data to EPA      and how its information may        format for sharing TRI data
       regions and delegated state          be useful in program               on discharges sent to POTWs,
       programs.                            implementation may not be          with OW developing
                                            known.                             materials to explain the utility
                                                                               of TRI data to NPDES permit
                                                                               writers and pretreatment
                                                                               program personnel. This will
                                                                               include exploring options for
                                                                               an online search tool to more
                                                                               easily identify TRI discharges
                                                                               to specific POTWs.



 OIG Response: For Recommendation 1, the suggested revision meets the intent of the
 recommendation, and the report updated to reflect this. OW clarified that the estimated
 completion date for this recommendation is 09/30/2015. The Agency agreed to add additional
 corrective actions to address Recommendation 4, developing three additional reports by
 09/30/2015. These reports are (1) report that will show who is required to report WET and, if
 they are required report, who has not reported WET data, (2) a report on WET violations, and
 (3) all chemical exceedances including WET.




14-P-0363                                                                                        24
CONTACT INFORMATION

      If you have any questions regarding this response, please contact Deborah Nagle,
      Director of the Water Permit Division on (202) 564-1185 or Nagle.Deborah@epa.gov
      or Marcus Zobrist, Chief of the Industrial Branch on (202) 564-8311 or
      Zobrist.Marcus@epa.gov.

Attachments
cc:   Cynthia Giles, OECA
      Renee Wynn, OEI




14-P-0363                                                                                25
                                                                                Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Water
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Principal Deputy Assistant Administrator for Water
Principal Deputy Assistant Administrator for Enforcement and Compliance Assurance
Principal Deputy Assistant Administrator for Environmental Information
Deputy Assistant Administrator for Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response




14-P-0363                                                                               26
